USE OF EQUITABLE SHARING REVENUES BY
 THE MINNEAPOLIS POLICE DEPARTMENT
       MINNEAPOLIS, MINNESOTA



       U.S. Department of Justice
     Office of the Inspector General
              Audit Division


      Audit Report GR-50-10-002
              March 2010
                 USE OF EQUITABLE SHARING REVENUES BY
                  THE MINNEAPOLIS POLICE DEPARTMENT
                        MINNEAPOLIS, MINNESOTA

                               EXECUTIVE SUMMARY

      The U.S. Department of Justice (DOJ), Office of the Inspector General,
Audit Division, has completed an audit of the use of DOJ equitable sharing
revenues by the Minneapolis Police Department (Minneapolis PD). Equitable
sharing revenues represent a share of the proceeds from the forfeiture of
assets seized in the course of certain criminal investigations. 1 During the
period of January 1, 2008, through December 31, 2008, the Minneapolis PD
was awarded DOJ equitable sharing revenues totaling $366,489 to support
law enforcement operations.

      The Minneapolis PD generally complied with equitable sharing
guidelines with respect to accounting for equitable sharing receipts, the use
of equitable sharing funds, supplanting, and reporting

      The results of our work are discussed in greater detail in the Findings
and Recommendations section of the report. The audit objectives, scope,
and methodology appear in Appendix I. We discussed the results of our
audit with Minneapolis PD officials, and we included their comments in the
report, as applicable.




       1
           The DOJ asset forfeiture program has three primary goals: (1) to punish and
deter criminal activity by depriving criminals of property used or acquired through illegal
activities; (2) to enhance cooperation among foreign, federal, state, and local law
enforcement agencies through equitable sharing of assets recovered through this program;
and, as a by-product, (3) to produce revenues to enhance forfeitures and strengthen law
enforcement.
